U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 4, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Rebecca A. Moriello v. United States of America, No. 20-1326

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on March 19,
2021, and placed on the docket on March 23, 2021. The government’s response is now due,
after one extension, on June 11, 2021.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of
time to and including July 9, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1326
MORIELLO, REBECCA A.
USA

WILLIAM ROBINSON HEROY
GOODMAN CARR, PLLC
301 S. MCDOWELL STREET
SUITE 602
CHARLOTTE, NC 28204
704-372-2770
RHEROY@GOODMANCARR.NET

